Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

December 8, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Concerned Citizens for Nuclear Safety, Inc. v. Environmental Protection Agency, et al.,
No. 20-717

Dear Mr. Harris:
I represent respondent Triad National Security, LLC in the above-referenced petition for
certiorari. A response is currently due on December 28, 2020. Respondent respectfully requests
that the time to file a response be extended by 30 days, to and including January 27, 2021.
The extension is warranted because the undersigned counsel, James T. Banks, has
upcoming deadlines in other matters that will require his attention over the coming weeks,
including consideration of the adequacy of two administrative records and preparation of any
necessary motions to supplement those records in Friends of the Boundary Waters Wilderness, et
al. v. U.S. Army Corps of Engineers, et al., No. 0:19-cv-02493-PJS-LIB (D. Minn.), as well as
the completion of detailed, multi-statute, environmental compliance audit reports for two
chemical manufacturing facilities. In addition, Mr. Banks’ ability to consult with Respondent
staff members and lawyers is likely to be adversely affected by their absences during the
upcoming holiday season. Given these commitments and circumstances, an extension of time is
warranted to permit Mr. Banks to prepare a response that fully analyzes and responds to the
arguments raised in the petition for certiorari.
Respectfully submitted,
/s/ James T. Banks
James T. Banks
Counsel of Record for Respondent
Triad National Security, LLC
cc:

Lindsay A. Lovejoy, Jr., Law Office of Lindsay A. Lovejoy, Jr.
Jeffrey B. Wall, Acting Solicitor General, U.S. Dep’t of Justice

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo
Warsaw Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
Legal Services Center: Berlin. For more information see www.hoganlovells.com

